<html>
<title> - IRAQ--POST TRANSITION</title>
<body><pre>[Senate Hearing 108-729]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-729

                          IRAQ--POST TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 22, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                     U.S. GOVERNMENT PRINTING OFFICE
97-430 PDF                  WASHINGTON: 2004
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    28

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    30

Gompert, Mr. David C., distinguished research professor, Center 
  for Technology and National Security Policy, National Defense 
  University, Washington, DC.....................................    11

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Schlicher, Hon. Ronald L., Iraq Coordinator, Bureau of Near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     3
    Prepared statement...........................................     5
    Responses to additional questions for the record from Senator 
      Biden......................................................    30

                                 (iii)

  

 
                         IRAQ--POST TRANSITION

                              ----------                              


                        THURSDAY, JULY 22, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in SD-
419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, and Biden.


        OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee meets today to 
review United States activities in Iraq since the transfer of 
sovereignty to the new interim Iraqi Government. Iraqis are 
again responsible for their own future, and the magnitude of 
the task that remains cannot be overstated. The next few months 
will be critical as the new government must establish security, 
continue to rebuild Iraq's infrastructure, and prepare the 
Iraqi people for national elections scheduled for January 2005.
    The ongoing insurgency imperils prospects for development 
of a peaceful, stable, and democratic Iraq. Meddling by foreign 
terrorists and some of Iraq's neighbors, such as Iran and 
Syria, also will stretch the new Iraqi Government's 
capabilities. The United States must continue to use every tool 
at our disposal to accelerate stabilization and reconstruction 
in Iraq and to strengthen the nascent Iraqi Government.
    I want to pay tribute to Ambassador Bremer for his 
dedicated service during the past year. Our Nation is grateful 
for his leadership and the work of all civilian and military 
personnel who have risked their lives in Iraq in service to our 
country. The United States and multinational forces in Iraq 
must now reinforce Iraq's fledgling security capabilities and 
provide the equipment, training, and support needed to create 
effective police, civil defense, border security, and military 
forces.
    I was pleased to learn at the recent Istanbul summit that 
our NATO allies are responding to Prime Minister Allawi's 
request for assistance to train and to equip Iraq's security 
forces. To reinforce international participation in Iraq, the 
United Nations needs to move boldly to bring back its resources 
and its expertise. Other nations also need to move swiftly to 
reduce Iraq's overwhelming debt and to follow through on their 
commitments to provide assistance.
    The United States must continue to clearly outline our 
long-term plans in Iraq to build confidence among the Iraqis 
and the American people that the transition will succeed. The 
arrival of Ambassador Negroponte in Iraq surely marks a new 
beginning for United States-Iraq relations. Secretary Powell 
briefed members of our committee before the Independence Day 
recess on the new embassy operations in Baghdad, and they 
represent an undeniable commitment to the future of Iraq.
    One area of serious concern is the pace of U.S. assistance 
to the interim Iraqi Government. As of July 13, reports 
indicated that of the $18.4 billion appropriated for Iraq last 
November by the Congress, only $6 billion has been obligated, 
and only $458 million has been expended. The new U.S. Embassy 
is attempting to accelerate assistance, but at the same time it 
intends to initiate a reevaluation of existing assistance 
programs. Such a study may be necessary, but it must not serve 
to further delay United States assistance.
    Ambassador Negroponte has asserted that the United States 
needs to construct a new embassy building in Iraq. I agree with 
his assessment. A United States Embassy that occupies the 
former regime's palace has severe symbolic disadvantages. 
Beyond symbolism the facility was not constructed to be an 
embassy. Under Secretary of State Marc Grossman testified 
before our committee in May that a new embassy could cost more 
than $1 billion. The administration did not include these funds 
in the fiscal year 2005 budget request, but indicated they 
might be included in a supplemental. The sooner we identify the 
costs, the more quickly funds can be requested and construction 
can begin, demonstrating our good intentions to the Iraqis.
    Most Iraqis are optimistic about the future. Even before 
the transfer of sovereignty, polls conducted by Oxford Research 
International and the International Republican Institute found 
that about three-quarters of the Iraqi people believed that 
they were either about the same or better off than before the 
war. Oxford found that 64 percent of Iraqis expect that their 
lives will be better a year from now.
    In 7 months, Iraqis are scheduled to hold elections for a 
275-member National Assembly. This assembly would then 
undertake the weighty duty of writing a constitution for Iraq. 
The Independent Elections Commission of Iraq, selected through 
a collaborative process with the United Nations, was confirmed 
in May. Members of the Commission completed a United Nations-
sponsored training session in Mexico.
    The election plans call for setting up as many as 30,000 
polling stations, recruiting and training as many as 150,000 
election workers, and ensuring accurate voting results of about 
13 million people. This is an incredibly daunting prospect. The 
committee would be very interested in our witnesses' views on 
whether the election plan can be executed effectively. If this 
is an unrealistic plan, do other options exist that might 
advance the formation of a permanent Iraqi Government?
    Today we are most fortunate to have a panel that has been 
deeply engaged in policymaking with respect to Iraq. We welcome 
Ambassador Ron Schlicher, the Iraq Coordinator at the United 
States Department of State, and Mr. David Gompert, who worked 
in Iraq as Ambassador Bremer's senior adviser for national 
security and defense. Gentlemen, we look forward to your 
insights and a chance to engage you in questions and answers 
about United States policy in Iraq.
    I'll ask you to testify in the order that I introduced you, 
and that would be first of all Ambassador Schlicher.

STATEMENT OF HON. RONALD L. SCHLICHER, IRAQ COORDINATOR, BUREAU 
       OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Schlicher. Thank you, Mr. Chairman, and good 
morning, and thank you for the opportunity to appear today 
before the committee to discuss our progress in Iraq and the 
early achievements of the Iraqi Interim Government following 
the transition of power from the Coalition Provisional 
Authority.
    I am happy to report to you today that the Iraqi Interim 
Government is off to a strong start. Led by President Ghazi al-
Yawer and Prime Minister Allawi, the interim government is 
looking out for the best interests of the Iraqi people. Those 
interests which coincide with the interests of the United 
States include increasing security in Iraq, improving the 
economy, affirming the place of Iraq as a peaceful, lawful, 
democratic, and responsible member of the international 
community, and very importantly, as you mentioned, sir, in your 
opening remarks, laying the groundwork for national elections 
to give all Iraqis a voice in their future.
    An important step toward that future is scheduled next week 
in Iraq. The Interim Government is sponsoring a national 
conference of 1,000 delegates from across Iraq who will meet in 
Baghdad to promote national reconciliation and appoint the 
interim National Council. Delegates to the conference will 
include representatives of political parties, academics and 
professionals, members of various civil society groups, tribal 
leaders, and members of the conference's preparatory committee, 
which has already been at work to make the conference happen.
    More than half of the delegates will be selected from the 
provinces of Iraq in an attempt to ensure that all voices are 
heard, and right now in the provinces the work of the 
provincial councils selecting those members is very much 
underway.
    Members of the conference in turn will appoint 100 Iraqis 
to form the interim National Council. This Council will serve 
throughout the period of the Interim Government, which will end 
by next January when elections are held for a transitional 
National Assembly. The transitional government that will be 
formed by this assembly will be charged with the vital task of 
drafting a permanent constitution for Iraq.
    The interim National Council will broaden the base of 
support of the Interim Government, it will act in an oversight 
and advisory role for the Interim Government, and it will have 
the authority to veto decisions of the Interim Government by a 
two-thirds vote. It will also, of course, help shape the 
process of the coming elections.
    Through next week's conference, the National Council and 
the other institutions of the Interim Government, the Iraqi 
people are beginning to assume responsibility for and, of 
course, the burden of managing their own affairs in a manner 
consistent with the rule of law and with the obligations of a 
sovereign member of the international community.
    It's very clear, sir, that Iraqis are anxious to assume 
that responsibility and to assert their sovereignty. They do 
not hesitate to say so. In fact, they are vigorously exercising 
their newly won right of free speech in community meetings, in 
cafes, in mosques, and in farm fields up and down the Tigris 
and the Euphrates. And in doing so, the Iraqi people have made 
clear that their top concern is the restoration of security and 
the defeat of the insurgents and terrorists who want to 
undermine stability and undermine the path forward toward full 
democracy.
    In response, while the Interim Government has taken a hard 
line against violence, it is also reaching out to all Iraqis 
willing to participate peacefully in that political process. 
For example, there are reports that the Interim Government is 
considering issuance of an amnesty law that would provide an 
opportunity for those who wish to give up the path of violence 
and join the supporters of a free and democratic Iraq. We 
welcome all of these efforts at national reconciliation, and of 
course, any final decision on an amnesty will be an Iraqi 
decision.
    However, we have been clear with the Interim Government 
that we believe that those responsible for causing the death of 
Iraqi civilians and security forces or members of the U.S. or 
Coalition armed forces should face justice.
    Even as the Interim Government reaches out to those Iraqis 
who are willing to participate in the political process, they 
have very aggressively attacked crime and terrorism. Prime 
Minister Allawi has issued a decree authorizing the Interim 
Government to exercise certain limited powers in particular 
emergency situations in order to give the government more tools 
to meet the demands of Iraqis for safer streets.
    In recognition of the lessons learned from the Saddam era, 
however, the decree also includes important procedural 
safeguards that will prevent it from being abused to infringe 
on the civil rights that Iraqis are only now beginning to 
enjoy. U.S. Embassy officials consulted on these issues when 
asked by the Interim Government as part of our commitment to 
support that government with advice and assistance. Deputy 
Secretary of State Armitage, during his recent trip to Baghdad, 
made that commitment clear to Foreign Minister Zebari when he 
said, the message here in the United States is quite simple. 
There is a sovereign government in Iraq. Our job is to support 
that government to the absolute extent that we can, and we're 
going to do it.
    During our consultations with the Iraqis, they have made 
clear that they want the troops and the multinational force in 
Iraq, ours and those of our partners, to work with them to 
provide basic security until the Iraqis can do that job 
themselves. The multinational forces are doing just that, and 
in a manner consistent with the exercise of full sovereignty by 
the Iraqi Government.
    But the ultimate success of the Interim Government, of 
course, depends on the support of the Iraqi people, and Iraqis 
are showing that they are behind it. Throughout Iraq, 
courageous citizens are taking positions at all levels of their 
country's new government as cabinet members, as local 
administrators, as local council members, and as civil 
servants. All too often we hear of attacks against government 
officials, including many of whom those of us who served in 
Iraq were privileged to know as friends.
    But the Iraqis do not back down. Young men continue to line 
up outside recruiting stations to join the security forces. 
They are being attacked and many have been killed, but they 
continue to step forward. They understand very well that their 
future is on the line and that with our help they're willing to 
fight for it.
    Despite the difficult security environment, important 
progress has been made toward rebuilding Iraq. The relief and 
reconstruction of Iraq is a very ambitious project after the 
degradation of that country's infrastructure over the past 24 
years. Of the $21 billion in 2003 and 2004 assistance, over 
$8.4 billion has been obligated. These funds have helped us 
sustain economic activity and hope since the first days of the 
war.
    This money, Mr. Chairman, is making a tangible difference 
in the lives of Iraqis. More than 30,000 Iraqis are now working 
as the direct result of our assistance. We have immunized over 
3 million children under the age of 5, vaccinated 700,000 
pregnant women, and updated the skills of 2,500 primary health 
care providers in 700 positions. Hospitals and clinics have 
been refurbished, medicines are being equitably distributed for 
the first time in many years, schools are being repaired, 
teachers trained, new curricula developed. Students are now 
free to exercise critical thought and learn new ideas in the 
universities. Attendance in the 2003-2004 school year was as 
high as or higher than pre-war levels. Over 8 million new 
textbooks have been distributed around the country. And now, 
with the sovereign government in place and a U.S. Embassy team 
on the ground, we are consulting more closely with the Iraqis 
about their reconstruction priorities and reviewing the 
original spending plan for our assistance to make sure it 
accords with the emerging needs and priorities in Iraq.
    Under Ambassador Negroponte's leadership, the Iraqi 
Reconstruction and Management Office, known as IRMO, and the 
Embassy's country team are reviewing current assistance plans. 
We anticipate the initial work on this review will be completed 
by the end of July. The new team on the ground in Baghdad will 
seek to assure that our allocations and commitments of 
resources track with evolving Iraqi needs and support the 
efforts of the Interim Government to establish the security, to 
establish prosperity, and to establish democratic practice.
    We look forward to sharing with you the results of this 
review, Mr. Chairman, and I would also note in line with your 
own remarks, sir, that part of that review will be the search 
for greater speed in getting the assistance to those who need 
it most, and the other part of it will seek to identify how the 
maximum number of employment opportunities can be generated.
    Our assistance remains vital to the Iraqi Government, which 
is committed to the modernization of the economy and 
establishing the services and institutions that will raise the 
standard of living for all Iraqis. In fact, the standard of 
living has already shown lots of signs of improvement. Shops 
are full of consumer goods, household income is growing, 
inflation is at reasonable levels for a post-conflict economy. 
Many Iraqis are beginning to see an improvement in their lives. 
We estimate that per capita household income will likely double 
this year over last year's figure.
    In the financial sector, the currency swap was viewed as a 
resounding success. Based on the surprising stable value of the 
dinar this year, we believe Iraq is poised to begin needed 
reforms to its financial system as well.
    Now, without a doubt, the Interim Government faces very 
critical, very major challenges, both on the security front and 
on the economic front. Among the economic challenges I've also 
mentioned the infrastructure. I've also mentioned in passing 
persistent unemployment in the range of 10 to 30 percent, in 
some cases more. The Interim Government has determined that the 
top economic priority for them is job creation, and so, again, 
our review of assistance will be strongly focused on how to 
maximize employment opportunities for Iraqis.
    We've also been consulting actively with our coalition 
partners as we consider new ways to speed up their assistance 
as well to the Iraqi people and what better ways can new 
projects be identified, what better means of coordination can 
be effected to meet these goals.
    The Interim Government has also been very assertive and 
very active with other governments in reclaiming Iraq's place 
in the region and in the international community. It has begun 
to establish formal diplomatic and economic relations with 
countries throughout the world. It has taken steps to assure 
the world that its goals are clearly different from those of 
Saddam. For example, the government recently declared that Iraq 
will be a country free both of weapons of mass destruction and 
the means of their delivery.
    In response to the Iraqi Government's outreach, the 
international community is increasingly embracing the new Iraq. 
The U.N. Security Council recognized the transfer of authority 
to the Interim Government in its unanimous adoption of Security 
Council Resolution 1546. We were very pleased with Secretary 
General Kofi Annan's appointment of the Pakistani Ambassador to 
the United States, Ashraf Qazi, on July 12 as his new Special 
Representative for Iraq. We hope that Ambassador Qazi, who has 
so ably represented Pakistan here in Washington, will move 
expeditiously to reestablish the UN's full role and presence in 
Iraq.
    We and the Interim Government are working hard with friends 
and allies to facilitate the creation of the U.N. security 
force called for in Resolution 1546. The U.N. has much to offer 
as Iraq gears up for the national conference and for elections 
next January. Indeed, Carina Perelli, the head of the U.N. 
Electoral Assistance Mission to Iraq, and her team are already 
offering their immense expertise on the elections process. U.S. 
and international NGOs, many of whom have been on the ground 
now for months, are also stepping up their assistance to 
support the political process. We have pledged our full support 
for all of these efforts and to those of the Iraqis to move 
deliberately and steadily toward the elections, and in 
particular, sir, we have been coordinating closely with Ms. 
Perelli, both on the mechanics of the elections, the steps that 
we'll need to assure proper training for the elections, and 
we've been consulting with her on what security requirements 
for those elections will be necessary.
    Sir, you mentioned Ambassador Negroponte and the 
establishment of the Embassy. We have indeed stood up the 
Embassy in Baghdad and we have opened up our four regional 
offices in Mosul, in Kirkuk, in Hillha, and in Basra. To ensure 
that we were right-sized, we reviewed our goals in Iraq prior 
to the transfer and we aligned our mission planning in 
accordance with those prior studies.
    Now, based on that review, in the near term we will have 
approximately 1,000 Americans under the authority of Ambassador 
Negroponte. And I can assure you that every one of them is very 
busy and will remain very busy. The embassy, of course, has 
traditional sections like a political, an economic, a consular, 
and a management section. But unlike most embassies, it also 
contains temporary organizations, such as the liaison officers 
to various Iraqi ministries and other government agencies, the 
IRMO, which I mentioned early is another of these temporary 
organizations. It has the responsibility of assisting 
Ambassador Negroponte in setting and monitoring reconstruction 
policy. IRMO will also provide consultants to the Iraqi 
ministries, those ministries which identify their own needs.
    There will also be approximately 50 State Department and 
IRMO staff in the regional offices, I mentioned earlier, and in 
teams embodied in the military commands at the division level. 
Sir, this is just one example of the partnership between the 
Departments of State and Defense in Iraq. We understand that 
such cooperation is vital to our success in Iraq, as indeed it 
is around the world. The Departments planned jointly for the 
organization of U.S. activities in Iraq following the 
assumption of sovereignty by the Iraqis, recognizing the fact 
that our roles, our missions, our resources, and our 
responsibilities must be complementary.
    The ongoing security situation makes the closest 
partnership between the U.S. military commander and Ambassador 
Negroponte critical to our success. Ambassador Negroponte and 
General Casey are already collaborating very closely, as indeed 
the President has charged them to do. Ambassador Negroponte 
made clear to you here in the committee his commitment to do so 
during his confirmation hearing. Effective integration of all 
U.S. civilian and security operations will remain vital as we 
move ahead in meeting our goals in Iraq.
    These efforts, sir, underscore the commitment of the United 
States to assist the Iraqi Government as it builds an 
independent, secure, democratic, prosperous, and united Iraq. 
We share the interests of Iraqis in a better future for their 
country because we know that a free and democratic Iraq will 
mean a more secure region for the United States and more 
security for the United States. As President Bush said 
recently, democratic governments do not shelter terrorist camps 
or attack their neighbors. When justice and democracy advance, 
so does the hope of lasting peace.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to testify about our progress to date in Iraq 
and I look forward to answering your questions. Thank you.
    [The prepared statement of Ambassador Schlicher follows:]

             Prepared Statement of Hon. Ronald L. Schlicher

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before the Committee today to discuss our 
progress in Iraq and the early achievements of the Iraqi Interim 
Government following the transition of power from the Coalition 
Provisional Authority.
    The Iraqi Interim Government is off to a good start. Led by 
President Al-Yawer and Prime Minister Allawi, the interim government is 
looking out for the best interests of the Iraqi people. These 
interests, which coincide with those of the United States, include: 
increasing security in Iraq, improving the economy, affirming the place 
of Iraq as a peaceful, lawful, democratic and responsible member of the 
international community, and laying the groundwork for national 
elections to give all Iraqis a voice in their future.
    An important step toward that future comes next week. The interim 
government is sponsoring a national conference of 1,000 delegates from 
across Iraq who will meet in Baghdad to promote national reconciliation 
and appoint the National Council. Delegates to the conference will 
include representatives of political parties, academics and 
professionals, members of civil society groups, tribal leaders, and 
members of the conference's preparatory committee. More than half of 
the delegates will be selected from the provinces, in an attempt to 
ensure that all voices will be heard.
    Members of the conference will appoint 100 Iraqis to form the 
Interim National Council. The council will serve throughout the period 
of the interim government, which will end by next January when 
elections are held for a Transitional National Assembly. The 
Transitional Government that will be formed by this Assembly is charged 
with the vital job of drafting a permanent constitution. The Interim 
National Council will broaden the base of support for the interim 
government, it will act in an oversight and advisory role, and it will 
have the authority to veto decisions of the interim government by a 
two-thirds vote. It will also help to shape the process of the upcoming 
elections. Through next week's conference, the National Council, and 
other institutions of the interim government, the Iraqi people are 
beginning to assume the responsibility for--and the burden of--managing 
their own affairs in a manner consistent with the rule of law and with 
the obligations of a fully sovereign member of the international 
community.
    It is clear that Iraqis are anxious to assume that responsibility. 
They do not hesitate to say so; in fact they are vigorously exercising 
their newly-won right of free speech in community meetings, cafes, 
mosques, and farm fields up and down the Tigris and Euphrates. And in 
doing so, the Iraqi people have made clear that their top concern is 
the restoration of security and the defeat of the insurgents and 
terrorists who want to undermine stability and the path forward to 
reconstruction and full democracy. In response, while the interim 
government has taken a hard line against violence, it is also reaching 
out to all Iraqis willing to participate peacefully in the political 
process.
    For example, there are reports that the interim government is 
considering issuance of an amnesty law that would provide an 
opportunity to those who wish to give up the path of violence and join 
the supporters of a free and democratic Iraq. We welcome these efforts 
at national reconciliation; and any final decision on an amnesty will 
be an Iraqi decision. However, we have been clear with the Interim 
Government that we believe that those responsible for causing the death 
of Iraqi civilians and security forces or members of the U.S. or 
Coalition armed forces should face justice.
    Even as it reaches out to Iraqis willing to participate in the 
political process, the interim government has aggressively attacked 
crime and terrorism. Prime Minister Allawi has issued a decree 
authorizing the interim government to exercise certain limited powers 
in particular emergency situations in order to enhance the ability of 
the government to meet the demands of Iraqis for safer streets. In 
recognition of the lessons learned from the Saddam era, the decree 
includes procedural safeguards that will prevent it from being abused 
to infringe on the civil rights Iraqis are only now beginning to enjoy.
    In addition, the interim government has assumed legal custody of 
Saddam Hussein and some of his top advisors. Iraqis themselves are 
taking responsibility for the judicial process to hold them accountable 
for the atrocities they committed against the Iraqi people. The open 
and fair trials of Saddam Hussein and his supporters and staff in Iraq 
will be a vital part of the reconciliation process that is necessary to 
move beyond the traumas of the past and begin unifying society under 
the rule of law.
    U.S. Embassy officials consulted on these issues when asked by the 
Interim Government, as part of our commitment to support that 
government with advice and assistance. During these consultations, the 
Iraqi authorities have made clear that they want the Multi-National 
Forces in Iraq (MNF-I)--ours and those of our partners--to work with 
them to provide basic security until Iraqis can do the job themselves. 
The multinational forces are doing just that in a manner consistent 
with the exercise of full sovereignty by the Iraqi Government.
    But the ultimate success of the interim government depends on the 
support of the Iraqi people, and Iraqis are showing that they are 
behind it. Throughout Iraq, courageous citizens are taking positions at 
all levels of their country as cabinet ministers, local administrators, 
council members, and civil servants. All too often we hear of an attack 
against government officials, including many of whom those of us who 
served in Iraq are privileged to call friends. But the Iraqis do not 
back down. Young men continue to line up outside recruiting stations to 
join the security forces. They are being attacked, and many have been 
killed, but they continue to step forward. They understand that their 
future is on the line, and with our help, they are willing to fight for 
it.
    Despite the difficult security environment, important progress has 
been made toward rebuilding Iraq. The relief and reconstruction of Iraq 
is an extraordinarily ambitious project after the degradation of that 
country's infrastructure over the past 25 years. Of the total $21 
billion in 2003 and 2004 assistance, $8.3 billion has been obligated. 
These funds have helped to sustain economic activity--and hope--since 
the first days of the war.
    This money is making a tangible difference in the lives of Iraqis. 
More than 30,000 Iraqis are now working as a result of our assistance. 
We have immunized over three million children under the age of five, 
vaccinated 700,000 pregnant women, and updated the skills of 2,500 
primary health care providers and 700 physicians. Hospitals and clinics 
have been refurbished; medicines are being more equitably distributed.
    Schools are being repaired, teachers trained, and new curricula 
developed. Students are now free to exercise critical thought and learn 
new ideas. Attendance in the 2003-2004 school year was as high as, or 
higher, than pre-war levels. Over eight million new textbooks have been 
distributed around the country.
    Notwithstanding the periodic attacks on pipelines, average daily 
oil production and exports have nearly returned to pre-war levels. 
Daily megawatt hours of electricity produced countrywide are averaging 
the levels reached this time last year and they, too, are rising 
despite attacks.
    And now, with the interim government in place and a U.S. Embassy 
team on the ground, we are consulting more closely with the Iraqis 
about their reconstruction priorities, and reviewing the original 
spending plan for our assistance to make sure it accords with emerging 
needs and priorities. Under Ambassador Negroponte's leadership, the 
Iraq Reconstruction and Management Office (IRMO) and the Embassy's 
Country Team are reviewing current assistance plans. Ambassador William 
Taylor, who in September will take over as the head of IRMO, is on the 
ground in Baghdad to help lead the review. We anticipate the initial 
work will be completed by the end of July. The new team on the ground 
in Baghdad will seek to assure that our allocations and commitments of 
resources track with evolving Iraqi needs and support the efforts of 
the interim government to establish security, prosperity and democratic 
practices. We look forward to sharing with you the results of this 
review.
    Our assistance remains vital to the government, which is committed 
to the modernization of Iraq's economy and to establishing the services 
and institutions that will significantly raise the standard of living 
for all Iraqis. In fact, the standard of living has already shown signs 
of improvement. Shops are full of consumer goods that were unavailable 
last year, and with household income growing and inflation at 
reasonable levels for a post-conflict economy, many Iraqis are 
beginning to see an improvement in their lives. We estimate that per 
capita household income will likely double this year over last year's 
figure. In the financial sector, the currency swap was viewed as a 
resounding success. Based on the surprisingly stable value of the dinar 
this year, we believe Iraq is now poised to begin needed reforms to the 
financial system. Electricity production, while still below summer 
requirements, is available throughout most of the country, while under 
the former regime it mostly went to Baghdad and the central region. The 
recent build-up of stockpiles in gasoline and some other refined 
petroleum products is encouraging.
    Without doubt, the interim government faces critical economic 
challenges. The country's infrastructure has been devastated by the 
catastrophic policies of the former regime. Persistent unemployment is 
in the range of 10 to 30 percent or more. The interim government has 
determined that the top economic priority is job creation, and our 
review of U.S. assistance is strongly focused on how to maximize 
employment opportunities for Iraqis. We have also been consulting 
actively with our coalition partners as we consider new ways to speed 
assistance to the Iraqi people through new projects and better 
coordination. We look forward to the time when the UN, the World Bank 
and other donors can begin working directly inside Iraq.
    The interim government has also been working with other governments 
to reclaim Iraq's place in the international community. It has begun to 
establish formal diplomatic and economic relations with countries 
throughout the world. The new government has taken steps to assure the 
world that its goals are clearly different from those of Saddam. For 
example, the government has declared that Iraq will be a country free 
of both weapons of mass destruction and the means of their delivery.
    In response, the international community is increasingly embracing 
the new Iraq. The United Nations Security Council recognized the 
transfer of authority to the interim government by unanimously passing 
Resolution 1546. We are pleased with UN Secretary General Kofi Annan's 
July 12 appointment of Pakistani Ambassador to the United States Ashraf 
Jehangir Qazi as his new Special Representative of the Secretary 
General for Iraq. We hope Ambassador Qazi, who has also ably 
represented Pakistan at the UN, will expeditiously move to reestablish 
the UN's presence in Iraq. We and the interim government are working 
hard with friends and allies to facilitate the creation of the UN 
security force called for in Security Council Resolution 1546. The UN 
has much to offer as Iraq gears up for the National Conference and 
elections by next January. Indeed, Carina Perelli, the Head of the UN 
Electoral Assistance Mission to Iraq, and her team, among others, are 
already offering their immense expertise on the elections process. A UN 
team is already on the ground in Baghdad to assist with the National 
Conference next week. U.S. and international NGOs, many on the ground 
now for months, are also stepping up their assistance to support Iraq's 
emerging political process. We have pledged our full support for all of 
these efforts and those of the Iraqis to move deliberately and steadily 
down the road of democracy.
    To manage vital U.S. interests in Iraq, we have stood up the U.S. 
Embassy in Baghdad and formalized the development of four regional 
offices. To ensure we were ``right-sized,'' we reviewed our goals in 
Iraq and then aligned our mission planning with them. Based on that 
review, in the near term, we will have approximately 1,000 Americans 
under the authority of Ambassador Negroponte. I can assure you that 
every one of them will be very busy. The Embassy has traditional 
sections such as political, economic, consular, and management, but 
also contains temporary organizations, liaison officers to Iraqi 
ministries, and other government agencies. IRMO will be one of the 
temporary organizations and have responsibility for assisting the 
Ambassador to set reconstruction policy. IRMO will also provide 
consultants to Iraqi ministries. About 140 people from the Department 
of State will be assigned to Embassy Baghdad. There will be 
approximately 50 State Department and IRMO staff at the regional 
offices and in teams embedded in military commands.
    This is just one example of the partnership between the Departments 
of State and Defense in Iraq. We understand that such cooperation is 
vital to our success in Iraq, as it is around the world. The 
departments planned jointly for the organization of U.S. activities in 
Iraq following the assumption of sovereignty by the Interim Iraqi 
Government, recognizing the fact that our roles, missions, resources, 
and responsibilities are complementary.
    The ongoing security situation makes the closest partnership 
between the U.S. military commander and the Chief of Mission (COM) 
critical to our success. As is standard worldwide, the COM, under the 
guidance of the Secretary of State, will have full responsibility for 
the direction, coordination, and supervision of all USG Executive 
Branch employees in Iraq, except for those under the command of the 
U.S. area military commander, and employees seconded to an 
International Organization.
    The COM and the MNF-I Commander General Casey are already 
collaborating closely as the President has charged them to do. 
Ambassador Negroponte made clear his commitment to do so during his 
confirmation hearing before this committee. Effective integration of 
all U.S. civilian and security operations will remain vital to success 
in Iraq. The Department of State and Department of Defense have 
completed Memoranda of Agreement or general administrative support and 
security to help build our close cooperation.
    These efforts underscore the commitment of the United States to 
assist the Iraqi Government as it builds an independent, secure, 
democratic, prosperous and united Iraq. We share the interest of Iraqis 
in a better future for their country, because we know that a free and 
democratic Iraq will mean a more secure United States. As President 
Bush said recently: ``Democratic governments do not shelter terrorist 
camps or attack their neighbors. When justice and democracy advance, so 
does the hope of lasting peace.''
    Mr. Chairman, thank you again for the opportunity to testify about 
our progress in Iraq, and I look forward to answering any questions you 
may have.

    The Chairman. Well, thank you very much, Ambassador 
Schlicher, for that very comprehensive and reassuring 
statement. We look forward to questioning you after we have 
heard from our next witness, Mr. David Gompert. Would you 
please proceed?

     STATEMENT OF DAVID C. GOMPERT, DISTINGUISHED RESEARCH 
PROFESSORS, CENTER FOR TECHNOLOGY AND NATIONAL SECURITY POLICY, 
                  NATIONAL DEFENSE UNIVERSITY

    Mr. Gompert. Thank you, Mr. Chairman, and good morning to 
the committee. I should state that while I spent over 6 months 
in Iraq, I currently speak only for myself. I am not here to 
speak for U.S. policy or attempt to defend U.S. policy. What 
I'd like to do, if you would give me 5 or 10 minutes for it, is 
to share with you my analysis of three aspects: first, the 
current very difficult security situation and why we find 
ourselves in this difficult security situation; second, 
problems in dealing with that security situation that I think 
are in most need of attention; and third, my analysis of the 
prospects for the next 6 months or a year.
    On the security environment today, which is undoubtedly in 
my view more severe than it was when I arrived in Iraq about 7 
months ago, I think one has to begin with the threat. The 
threat today is much more sophisticated than it was when Saddam 
Hussein was captured. The remnants of the Saddamist security 
organizations are mostly hardened killers, experienced hardened 
killers, but having been decapitated as an organization, they 
have become more cellular and more networked and more embedded, 
more dispersed, fluid, urban, and this is a very difficult 
threat to defeat militarily without very strong public support.
    Second, the international professional terrorist threat, 
and I'm now talking about the really hard core pros, not all 
the foreign fighters, but the professional terrorists. They've 
had a year, over a year now, to plan, prepare, infiltrate, 
organize in the country, network, bring in their own well-
developed weapons, in particular the suicide bomb, kidnaping, 
and assassination techniques. They too, as we know not only 
from Iraq but from other parts of the world, as they disperse, 
as they network, as they move, are extremely difficult to 
defeat militarily.
    In fact, I would say that the current threat, this 
particular combination, cannot be defeated militarily without 
much stronger support from the Iraqi people than we experienced 
certainly during my 7 months in Iraq. Why did we not receive 
that public support? And I believe we did not receive it in 
sufficient abundance and in sufficient timeliness to have made 
a difference in dealing with these threats.
    I would say there were two reasons. First, animosity toward 
foreign control, there's no question about it. By the time I 
got there in December, there was little hint of appreciation 
for liberation and Iraqis throughout the country and at all 
levels either expressed or strongly implied to me in our 
encounters resentment over the fact that they were under 
foreign occupation and foreign control, and therefore, they 
were not about, the vast majority of them, to extend themselves 
and risk themselves to turn in or turn on the Saddamist killers 
and the foreign terrorists.
    But the other factor has to do with the level of 
disappointment and dissatisfaction throughout the Iraqi 
populace with the state of their lives. Clearly, they felt they 
were better off no longer being oppressed and they saw a 
brighter future, there's no question about that. But I also 
think, and it's not inconsistent with those observations, that 
they were quite disappointed with the state of their lives and 
the lack of progress in the quality of their lives in the year 
following the war. I think they had excessive expectations 
about what we were going to be able to do.
    But I think the most important thing to realize is that we 
as a country underestimated the problems of Iraq, the 
difficulties of Iraq, perhaps because we were so focused on the 
threat that it posed. We saw it as far more robust than it was. 
This was a country, even though the regime itself was strong 
and could have clung to power for some time through brutality, 
the country itself was in a very advanced stage of 
deterioration and rot. It was true of the physical 
infrastructure, it was true of the human capital through 
declining education and health services, it was true of the 
bureaucracy which was incompetent, top-heavy, corrupt, hollow, 
it was true of the state involvement in the economy, which 
ruined just about everything that it touched, and through the 
state-owned enterprises, and it was true of the security 
apparatus, both the institutions and the forces themselves, 
again top-heavy, ineffective, feared, but in an advanced stage 
of rot in my view.
    So we were involved not only in facing a massive 
reconstruction, but really trying to build something 
fundamentally new in the country as a whole, and our partners 
were really unprepared for the immensity of that task. So we 
got a slow start, the CPA well into its existence was trying to 
get up to somewhere close to the full complement of people that 
it needed. You've already talked about the slowness through, I 
think, a business as usual attitude about RFPs and contracts 
and the like; CPA was slow to deliver resources. And I also 
think, with hindsight perhaps, not sufficiently attentive to 
the importance of massive and urgent labor-intensive 
reconstruction projects to soak up that unemployment.
    So I do want to state for the record that this is despite 
the heroic efforts of people like Ron Schlicher and the 
Coalition Provisional Authority and the strong leadership of 
Ambassador Bremer. We simply were not prepared for the enormity 
of the reconstruction, and as a consequence, instead of 
millions of Iraqis being employed in big housing and 
infrastructure reconstruction projects, they were unemployed, 
they were dissatisfied with the level of services, they did not 
see the infrastructure improving, the education and access to 
health were not improving. And who did they blame? They blamed 
the foreign governing authority.
    So we had the combination of our lack of legitimacy because 
we were a foreign occupier and this dissatisfaction with the 
quality of lives and the pace at which those were improving, 
and those are not conditions in which we, CPA, or our military 
could expect the kind of very brave and active and widespread 
public support that is absolutely essential to defeat those 
threats that I described.
    Now, in this context, there were two particular problems. I 
believe they are now being addressed more effectively than they 
were during the period when I was in Iraq. Two particular 
problems concerning--addressing the security difficulties. One 
has to do with the Iraqi security forces and the other has to 
do with intelligence.
    With regard to the Iraqi security forces, during my tenure 
we were in a constant tug-of-war between two different 
concepts. One was to get as many Iraqi security forces, both 
police and military, what was then called the ICDC, it is now 
the National Guard, get as many as possible into the country, 
into the cities, in support of our troops and providing 
security on the streets of Iraq. That concept on the one hand, 
and on the other hand a belief that we had to take the time and 
make the investment to produce well-led, well-trained high 
performance specialized forces that were capable of standing up 
to the kinds of threats that we saw.
    Had we resolved that contest between those two concepts, I 
think we would have had much better Iraqi security forces by 
the time of the April crisis than we did. By April, we had far 
too few properly led, specialized, high performance, trained 
security forces to make a difference, and of the forces that we 
had many of, namely the Iraqi Civil Defense Corps and the 
police, they were definitely not up to the task.
    I believe that this tension between numbers and quality is 
being resolved and it's being resolved at a minimum by the 
decisiveness of the current Iraqi Prime Minister by showing a 
preference for high performance, quick reaction intervention 
forces and counter-terrorism forces, which I think are 
indicated by the threat.
    The second problem that we experienced and our forces 
experienced and Iraqi forces experienced was poor intelligence. 
At the risk of appearing to pile on the intelligence community 
these days, I have to say that in Iraq not only did we have the 
failure at the strategic level, to understand prior to the war 
just how seriously deteriorated Iraq had become, but also in 
the piece that followed or in the security situation that 
followed, I believe we were poor, we have been poor at getting 
actionable intelligence quickly from those in a position to 
acquire it into the hands of people who can do something about 
it. This is to a large degree because we haven't had adequate 
support from the Iraqi people. That's where the intelligence 
has to originate.
    But second, because we were operating in islands of 
different intelligence communities, both within the coalition 
and on the Iraqi side, we weren't really able to get actionable 
intelligence, as I indicated, into the hands of Iraqi police, 
Iraqi security forces, or our own coalition forces in time to 
act on these very sophisticated, embedded, and always moving 
threats. That too I believe is being improved with the Prime 
Minister's decision to create an internal intelligence service, 
which is, of course, sensitive given the abuses of the past. 
But, this will bring the intelligence capabilities much closer 
to the police and the security forces that require the 
intelligence.
    Now, it may surprise you that my outlook for the future is 
actually upbeat, guardedly upbeat. And that's not because the 
threat is going to disappear or be defeated soon. As I said, 
this is a threat that can't be defeated by military means 
alone. The violence will continue because the threat now is 
using more sophisticated, deadlier weapons and methods. So we 
have to expect that the threat is going to persist, both the 
international professional terrorists and the remnants of the 
Saddamist security organizations, and it will continue at least 
through the election and no doubt beyond.
    But it's important to recognize that these enemies are 
actually not winning. They are not achieving their objectives. 
When you look at it not measured by the level of violence, 
however important that is, but instead, are the enemies of free 
Iraq achieving their objectives, the answer is that they are 
not. They have given their best shot, and despite that, we had 
the interim constitution, we had the appointment of the Interim 
Government, we had the transfer of authority, we have the 
conference, we will have the elections, and these are the 
battles that the enemy has failed to win despite its violence.
    The aim of security looking forward is to protect that 
political process in the belief that that political process 
itself will produce sufficient legitimacy that the government 
can count on the support of the people. So the stronger the 
political process, the more difficult it will be for the 
enemies to prevail, and in turn, what we need to do now, in 
particular with Iraqi security forces supported by our own, is 
to provide an environment in which they can't derail that 
process.
    I see positive developments taking place. I believe that 
these careful emergency powers actions that are under 
consideration by the Interim Government are very wise and they 
will be done with great care, again, in view of Iraqi fears of 
abuse. The emphasis on a domestic intervention force within the 
Iraqi armed forces, high performance force is important, 
emphasis on counter-terrorism capabilities, on quality rather 
than numbers, the creation of the domestic intelligence 
service--we still have to see the details--is important.
    I also believe, as Ambassador Schlicher said, that the 
apparent inclusiveness of the Iraqi Interim Government is 
increasing its legitimacy even though it wasn't elected. Its 
emphasis on job creation first and foremost in the 
reconstruction process, these are all very positive.
    I think just to close, Mr. Chairman, that what we need to 
do is to deliver all the support they required. To take our 
cues as to what the priorities are not from what we think, but 
from what the Iraqi Government thinks. We may not agree with it 
every time, but they have to take that responsibility. We 
should respond to their priorities after they've received our 
advice. We should keep our hands off the steering wheel, but we 
should be very vigilant that the political process continues as 
the Interim Government has pledged to do. I think it is 
particularly important that these elections take place on time.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Mr. Gompert. We 
really appreciate the remarkable testimony from both our 
witnesses. I want to start the questioning by indicating that 
we'll have a first round with 10 minutes for each Senator. I'll 
start the questioning by commenting, Ambassador Schlicher, you 
have really spelled out the process, and I have not seen this 
in this great detail before. I want to highlight that a 
conference of 1,000 delegates is to meet in Baghdad this coming 
week. Is that your testimony?
    Ambassador Schlicher. Yes, sir. Our indications from Dr. 
Fuad Masoum, who's the head of the preparatory committee of the 
national conference is that at this point he certainly still 
plans to convene the conference next week. There are huge 
logistical challenges in doing that, but so far he's holding to 
that timetable.
    The Chairman. And enough preparatory action has gone on in 
all the sectors that you described so that the thousand persons 
who have come, if not perfectly representative of the country, 
are at least representative of the different religious, 
geographical groups, occupational groups, and all the rest? The 
Iraqis looking at these 1,000 delegates might conceivably 
identify them as a reasonably representative group?
    Ambassador Schlicher. Yes, sir. That's certainly the 
guiding impulse, and they are casting a very, very wide net. As 
I have mentioned, the members of the preparatory committee are 
seeking delegates from the provinces. The provinces are in the 
process of selecting right now, members of women's groups, 
members of NGOs, members of political parties, the former 
members of the Iraqi Governing Council, and the guiding idea is 
to seek maximum participation and buy-in in the new system.
    The Chairman. Is there coverage of these selection or 
appointment procedures in the local Iraqi press? If you were 
out there in the countryside, would you have any idea who is 
going to Baghdad on your behalf?
    Ambassador Schlicher. I think certainly as the provincial 
processes are underway this week, in many ways Iraq is a series 
of small towns, even in huge cities like Baghdad, so I think 
that particularly through this week's provincial process, the 
word is going to get out. We certainly hope that that makes 
excitement and anticipation bloom.
    The Chairman. Now, it may also make a security problem 
bloom.
    Ambassador Schlicher. Yes, sir.
    The Chairman. What kind of security is going to be provided 
for these 1,000 persons? This is a pretty large movement of 
people in a country in which movements in some cases are 
difficult, if not dangerous. So what is your feel for how this 
is going to physically happen?
    Ambassador Schlicher. I know the preparatory committee has 
been in very, very active touch with the Interim Government, 
and on some issues with the coalition forces and the embassy on 
the logistics. It is a very huge challenge, but I know that 
they're actively engaged in everything from hotel rooms to 
passes to convoys, et cetera, et cetera. So a very intense 
effort is underway, and of course, a part of that planning 
effort is trying to stave off the predictable sorts of security 
incidents that might accompany the conference.
    The Chairman. Just to pick up Mr. Gompert's point, our 
major mission is to provide security for this democratic 
process. This is a big step up at this point, and a lot of 
people are involved, well beyond the interim group of cabinet 
ministers and what-have-you.
    We'll know at least next week whether they got there. We 
will see who arrives and how well-received they are at that 
point. But you go on to point out that this group is going to 
then appoint 100 people from the 1,000 to form this interim 
National Council. It has real power. By a two-thirds majority 
it can overrule Prime Minister Allawi, for example. We've 
talked elsewhere about Allawi's emergency orders and decrees 
and so forth. I gather from what you were saying that it's 
contemplated that after these 100 advisors get appointed, they 
meet somewhere and they are monitoring the cabinet officials, 
including the Prime Minister and the President of the country. 
Is that your view?
    Ambassador Schlicher. Yes, sir. Their powers are spelled 
out in the annex to the Transitional Administrative Law that 
was promulgated shortly before the demise of the CPA.
    The Chairman. And has that been accepted by all the parties 
involved now, or is it going to be debated as to whether that 
still prevails?
    Ambassador Schlicher. At this point, it's still regarded as 
the law of the land. Whether a body once constituted will 
continue to think that, we believe so, but who knows? Democracy 
can be very unpredictable.
    I would note that this interim council that's being stood 
up, it has powers that fall short of those of a legislature, 
with the thought being that full legislative powers should, of 
course, await an elected parliament. But it does have very 
important powers like the right of veto. It has the right to 
interpolate the ministers of the government. It has the right 
to review the 2005 Iraqi budget, and it has the right to fill 
any vacancies that might arise in the Presidency, that is, the 
President or the two Vice Presidents. So those are serious 
sorts of powers, which are intended, I think, to show Iraqis 
that a serious process is beginning and underway, and to make 
interest more keen, to whet interest in that electoral process 
that's coming down the pike.
    Sir, I would note that the security arrangements that are 
being made for the international conference are an important 
subset of more general security arrangements that are taking 
place. There's very strong security arrangements in place, of 
course, for the Interim Government, for the Iraqi election 
commissioners who are charged with the important task of 
preparing for the elections, for these folks. And, of course, 
when they choose the council, the council will have its own 
arrangements as well, so security is a very intensely worked 
issue.
    The Chairman. Well, indeed it will be. As both of you have 
pointed out, the security issue is important in order to 
protect these officials so they can proceed, as well as to 
protect all of these registration efforts. This vigorous 
attempt to find as many as 30,000 polling places or 150,000 
election workers will be a prodigious feat. I understand it is 
still the plan. Is that true as far as you can tell?
    Ambassador Schlicher. Yes, sir. And the U.N. has certain 
sorts of estimates and time lines that it's made along these 
lines. It certainly is very ambitious, and as someone who 
anticipates working intensely on it for the next 6 months, I 
see a lot of work, but we've already begun that work. We've 
sent teams here from Washington, from State, and from the Joint 
Chiefs, to have a preliminary look at what the U.N. thinks its 
security requirements are going to be on the State side of the 
House. We've also talked to them about what those training 
requirements are going to be, and in fact, we intend to engage 
the election team again in New York next week, because we want 
to be as well prepared as we can to meet these huge challenges.
    The Chairman. Mr. Gompert pointed out that the Iraqi people 
were unhappy with the occupying power. Likewise they are 
unhappy with unemployment, with the lack of promise that came 
there. It appears to me that the delivery of the services and 
the contracts and what have you we have involved is still 
tediously slow. The explanations are that, after all, we have 
laws in our country, we have contracts, we have procedures. I 
think we all understand that. Congress has provided a lot of 
the hurdles there.
    But at the same time, the impelling need for jobs, for 
orientation of this money in these same localities that are now 
sending these representatives to Baghdad, is just of the 
essence. think that's apparent to you. The question is, 
physically, how are we going to move it along so that we have 
some benefit? The Congress had the debate. We passed the $18.4 
billion. But the fact is, not a whole lot has happened. 
Disappointingly little. Despite the obligations, the 
performance is very, very minimal.
    Now, I would just say simply that this is a part of our 
task in support of this situation. It seems to me that the 
Prime Minister has a security problem. He's trying to hire 
people to combat the vicious killers that you both have 
described accurately. They're still out there. Although the war 
may be going well for them, it isn't over and won't be. All the 
way through this refined democratic process, we have people 
being killed, shot all the time.
    In the meanwhile, if there is not some delivery by Allawi 
or President Yawer or what-have-you in terms of more economic 
prosperity, they have the same problem we have as political 
people in our country. It's a jobs issues, it's an economy 
issue, quite apart from the esoterica of democracy.
    I simply make these points in passing because I appreciate 
your outlining very specifically what the blueprint is. I 
appreciate Mr. Gompert's realism as to what our experience was 
through failure, failure on our part, on our intelligence 
community's part, the administration's part, to have very 
little understanding of what Iraq was really like at that 
point. We all know a whole lot more now, and so we better get 
it right this time through.
    It appears to me that there's a good blueprint. We've been 
surprisingly lucky, I think, with the leadership, arising as it 
did with Allawi and Yawer and others. They have miraculously 
stayed alive, and I say that advisedly, in a very tough 
business, which both of you have been involved in day by day. 
We very much appreciate this chance to review things at this 
point, for our benefit and our colleagues, and likewise for the 
American people.
    I recognize my colleague now, Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, gentlemen, thank 
you for appearing before us this morning. I'd like to move 
along the same lines that the chairman has just addressed. I 
noted in your testimony, Ambassador Schlicher, you use the 
numbers of $8.3 billion has been obligated, $21 billion, 2003, 
2004, that was appropriated. I want to address that in a 
moment, but part of the question I'm going to ask is to 
reconcile your numbers with a sheet I have here from the 
Defense Department update on how much money has been spent and 
obligated. And according to this, as of July 13, from the 
Defense Department, $458 million has been spent of the $18.4 
billion, and they claim that about $6 billion has been 
obligated.
    So there is discrepancy in these numbers and yours which I 
want you to address and explain why that is. To the point, 
there's a story in the Los Angeles Times today, which you've 
probably seen, and the headline is, ``State Department 
Criticizes Focus of Iraq Effort.'' The agency which has taken 
the reins on the reconstruction program in Iraq says money 
needs to shift from big projects to job creation, what the 
chairman was just talking to you about. ``The Pentagon's $18.4 
billion Iraqi reconstruction plan puts too much emphasis on big 
ticket construction projects and not enough on creating jobs 
for the regular Iraqis, State Department officials who have 
taken control of the program have concluded.''
    Then it goes on and develops about reprogramming money, 
because as you know it's earmarked for certain programs. So 
within the context of that entire universe, sort all this out 
for us. Are we making progress? And reconcile those numbers for 
me as well.
    Ambassador Schlicher. Yes, sir. Let me give it a stab, 
please. The information that I have before me is that in fiscal 
2003 money, that of the $2.5 billion of 2003 money, $2.4 
billion has been obligated and $1.4 billion disbursed. For 
fiscal 2004, of the $18.4, my information is that $6 billion 
has been obligated, and at this point, $500 million disbursed. 
Those add up to the $18.4 out of the total of $21. So I'm not 
sure which date, sir, these are, the DOD numbers you have are 
July 13, so I hope that helps answer the question. But if it 
doesn't, I'll certainly get you an answer.
    Senator Hagel. All right. Well, let's not quibble over a 
billion or two here and there, but let's stay focused on what's 
been spent. Why out of $18.4--so let's deal with that universe, 
the $18.4 billion--why in your opinion has--let's say a half a 
billion, I'll add a few tens of millions to it that's already 
been spent--according to these numbers from the Defense 
Department of July 13, $458 million has been spent from the 
total $18.4 billion. And the other part of that is, did we make 
a mistake on so-called big ticket items, not trying to get the 
money down to the job? And I'm going to want Mr. Gompert to 
respond to this too because he was there. He obviously alluded 
to some of this in his testimony.
    Ambassador Schlicher. Well, sir, you yourself and the 
chairman have alluded to some of the reasons that have been 
advanced as rationales for why the money hasn't moved quickly 
enough, which is a judgment that all of us certainly share, and 
that's in fact the impetus behind Ambassador Negroponte and the 
new team's review. And part of that review, of course, as I 
mentioned to the chairman, is going to be how can we speed up 
the actual delivery of assistance, and how can we maximize the 
creation of jobs, both of which are in our interest?
    As far as major construction projects go----
    Senator Hagel. Excuse me. Can you stop for a moment and 
address your question? That's the question I'm addressing to 
you. How can we do that? How are we going to do that? What 
plans are in place to do that? We know the problem, we know the 
challenge, we know what we didn't do. Now how are we going to 
fix it?
    Ambassador Schlicher. Well, sir, I hope that I can answer 
you in detail when I know what the results of the review are 
going to be. But I think that one thing that needs to happen in 
that regard is that we need to find out what are the projects 
that we can put on board immediately that have no unnecessary 
lead time and jobs that can create--or projects that can create 
Iraqi jobs immediately.
    I personally have some experience in the field in Iraq with 
the CERP program, which was flexible enough to give local 
commanders and local officials the ability to treat local 
problems very quickly. So I hope that we will come up with some 
new projects that cut out all of the middle steps that have to 
be undertaken if projects are large and infrastructure-related. 
I hope that we will be able to find ways to give Iraqi 
contractors contracts more speedily and directly as well, and 
see if that can cut down some of the lead time.
    But, sir, I also don't want to prejudge what the review is 
going to be out there, because I'm not part of it.
    Senator Hagel. Well, Ambassador Schlicher, you can 
understand some frustration here, and quite honestly, some 
significant concern when I hear you say three times in the last 
20 seconds, well, I hope, I hope we'll find an answer, I hope 
we'll be able to come up with a program, I hope. Then you 
continue to ask more questions, well, what, how, review. That 
doesn't instill a great amount of confidence in what we're 
doing over there.
    And I know you don't have all the answers. I know it's not 
all your responsibility. But surely in preparation for this 
hearing this morning, someone would have, I would assume, have 
given you something to tell us as to how we're going to fix 
this problem.
    Now, what Mr. Gompert has told us, and we heard from other 
people who had been there, there are stories out in papers this 
morning on all this, as there are daily, on how we are failing 
and how we are losing the people, and so we know what the issue 
is, security, obviously all the pieces are critical here, but 
we know what we must do. And to have you say, well, I hope 
we'll find a way, I hope we'll get at it, I hope the review 
will show something, that's not good enough.
    Mr. Gompert, would you respond to some of this?
    Mr. Gompert. Yes, Senator Hagel. There is one measure that 
I think deserves a great deal of attention, and that is job 
training and job placement. I'm confident that jobs will be 
created as we inject these resources, and as the Iraqis 
themselves have the revenues from oil, there will be ample 
resources injected into that economy to get jobs going. I 
happen to think, though it's not my field and it wasn't my 
responsibility, that construction, housing construction, 
infrastructure construction, attacked in a really strategic way 
would have required, demanded jobs and soaked up a lot of that 
unemployment.
    But as of now, I would say, as the requirement for jobs 
will begin to grow, it is very important that we link supply 
and demand, and that is actually not a big ticket item. Job 
training and job placement actually is done not for billions 
but for tens of millions or hundreds of millions on a 
nationwide scale. I think that job training and job placement 
program was slow to get started, as were so many other things, 
for the reasons I've indicated. It needs resources, it needs 
energy, and it needs focus, particularly in those areas of 
unemployment that we know feed directly into the security 
problem, namely ex-militia and ex-army.
    And before I left, I was involved in setting up a veterans 
administration, the principal purpose of which is not just to 
send out pensions, but to get these veterans, hundreds and 
hundreds of thousands of veterans otherwise staying home in 
anger, get them trained and get them targeted toward the jobs 
that I believe will be created. So I would invite the committee 
to direct attention to this relatively small item in the 
budget, but huge leverage item.
    Senator Hagel. Thank you. Before my time runs out, I want 
to stay with you, Mr. Gompert, on comments that you made 
initially here in the last few minutes, and you opened with an 
analysis of where you think we are today, the difficulty ahead, 
terrorism, what's happened as we have seen terrorism break up, 
as you noted, I think, these cellular units, in a much more 
dangerous, I think those were your words, way than we have 
previously anticipated or seen.
    Would you take that down a little further? Are we talking 
about a decentralization of these terrorist networks and then 
they use our involvement in Iraq, our presence in Iraq, as 
training grounds, as focuses, as recruiting tools? Expand on 
what your point was in the opening comments. Thank you.
    Mr. Gompert. I don't think Iraq is just an opportunity for 
the international terrorists. I think it's a big challenge. I 
think it is very important for these groups to derail the 
political process and to prevent the emergence of a free, 
pluralistic, and democratic Iraq. So they're not there just 
because our troops happen to be there. They're not there simply 
to defeat our troops or to kill our troops or to cause us to 
leave, which I think by now they know they can't do. They are 
there to prevent the political process from continuing and they 
are absolutely committed to that.
    This makes the next 6 months especially critical and 
dangerous, because as the chairman has pointed out, and 
Ambassador Schlicher has pointed out, we have critical 
political developments coming up, the conference, the creation 
of the council, the run-up to the elections. These are the 
targets of these terrorists and the remnants of the Saddamist 
organizations. These are the targets, and they will resort to 
very significant violence, and we should be prepared for it.
    We told the Iraqis time and time again, the violence will 
occur, we know this about terrorism. And we now know it about 
terrorism in Iraq. So as we face these--the various steps in 
this political process over the next 6 months and beyond, we 
should brace ourselves for the violence that will occur, and we 
should support the Prime Minister above all, who means to move 
forward despite these threats and despite the violence that 
will occur. So continuing down that road in the face of that 
violence, I believe is the key to building the legitimacy, to 
creating the public support, to putting together a strategy 
that will defeat these terrorists and the insurgents. I hope 
that's responsive.
    Senator Hagel. Well, it is, and it's helpful and I 
appreciate that. And I would go back to something that you 
emphasized, Mr. Gompert, as well as Ambassador Schlicher, and I 
think it is the key, it's the essence, and it's what we're 
talking about here this morning, whether it's economic 
development, it's jobs, it's quality of life, and that is the 
people. If we lose the people, we lose. As you said, Mr. 
Gompert, this is not going to be won through military 
involvement, and if we lose the people, we lose. We've learned 
that throughout history.
    So I appreciate your focus on that, each of you, what 
you're doing and your colleagues. Thank you. Mr. Chairman, 
thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman, and welcome, 
gentlemen. Just following up on what Senator Hagel said, if we 
lose the people, as Mr. Gompert said, lose the support of the 
Iraqi people, certainly as Senator Hagel said, through history, 
whether it's our own experience recently in Vietnam or the 
Soviets' experience in Afghanistan, we're in trouble.
    And I was there in October and I was surprised how freely 
we could move about in Baghdad and Mosul. Mr. Gompert, you 
went, I believe, in December for 6 months, just got back. Do I 
have that right? And certainly the trend is against us. We now 
have tried to go back to Iraq in May, was not allowed for 
security reasons, and those that have been recently just go 
right to the green zone, so obviously the trend is not with us, 
and that all goes back to losing the support of the Iraqi 
people. They're turning against us.
    And that's my question. Certainly when I was there in 
October, the violence was from a minority of the people. If 
we're losing the support of the Iraqi people, I'll ask Mr. 
Gompert, are they turning violent, just the Iraqi people 
against us?
    Mr. Gompert. That's not the way I would diagnose it, 
Senator. The problem is that in order to defeat very 
sophisticated but relatively small threats of the sort that 
we're facing, not a broad-based insurgency, not at all, but the 
threats are so sophisticated and so embedded that it requires 
not just a sympathetic public, sympathetic to the Iraqi 
Government and to us, but a very active and courageous one 
willing to take steps, such steps as reporting on insurgent and 
terrorist presence, turning against very dangerous people, 
withholding cooperation despite threats, in turn cooperating 
with the police and with the Iraqi army and with our security 
forces.
    So we're actually asking a lot more of the Iraqi people, 
particularly in the Sunni heartland, than we can expect, unless 
they see a legitimate government, unless they see the quality 
of their lives improving, and I believe that's been the problem 
to date. But I do not see in this deteriorating security 
situation a more expansive, extensive insurgency. I see some 
increase in indigenous terrorism. As the international 
professional terrorists became embedded, they brought, they 
recruited, they proselytized, they brought their methods and so 
on. But talking about the threat becoming more sophisticated I 
think is really the way to think about it rather than it 
becoming more extensive. I hope that's helpful.
    Senator Chafee. Yes, thank you. And as we look ahead, you 
said the next 6 months are critical, and if we're not 
successful at the end of this 6-month period, then what?
    Mr. Gompert. Well, I think that situation could get worse. 
If the insurgents and the terrorists manage to defeat this 
political process by derailing the important upcoming steps in 
that process, then you could have a larger political problem 
and a larger security problem, because the sects and the 
ethnicities of Iraq have agreed on a federal structure, they've 
agreed on a bill of rights, they've agreed to work together, 
they've agreed on the kind of institutions and the political 
calendar. So there is broad agreement on the way forward, but 
if the insurgents and the terrorists are able to disrupt that 
way forward and derail it, then those fundamental agreements 
could begin to be in danger, agreement on federalism, for 
example, agreement on institutions that enables the majority 
Shia and the two minorities to envision a pluralistic system in 
which they could work together.
    Those basic understandings and deals that were done over 
the last year and were done in the transfer of authority to the 
Interim Government, they could begin to get shaky.
    Senator Chafee. Do you think it's worth it to, if we know 
through the democratic process and elections being called, that 
even if a fierce adversary, an al-Sadr or someone were going to 
be elected, to stick to it?
    Mr. Gompert. First of all, I think that it is right for the 
Interim Government to be as inclusive as possible. I think the 
advantages of being inclusive--I'll answer your question if I 
may just in this way--by being inclusive and by letting 
democracy absorb as much of the hopes and fears and differences 
and difficulties of the society as a whole, it really does 
isolate the extremists who are against the system.
    So I do believe that the Prime Minister's effort to be 
inclusive are important. I think that same principle should 
apply to the election process, that rather than attempting or 
encouraging the Interim Government to attempt to exclude or in 
some way condition the electoral process so that it would be 
impossible for more radical elements to be elected, I think at 
this particular stage, legitimacy demands inclusiveness, and 
that means taking some risks that the election will produce 
victors who we may not like.
    The alternative, that is to attempt now to engineer it so 
that that can't happen I think would ruin the opportunity that 
exists for the creation of broad-based legitimacy, which I 
think is key to security.
    Senator Chafee. Well, thank you very much. Ambassador 
Schlicher--Ambassador, is that right?
    Ambassador Schlicher. Ron is best.
    Senator Chafee. You certainly have----
    Ambassador Schlicher. Thank you, sir.
    Senator Chafee. What country?
    Ambassador Schlicher. I wish I got to pick.
    Senator Chafee. But you have a lot of experience in the 
region, Tunisia, Jerusalem, you were involved in the Egyptian-
North African affairs, you were a consular officer in Damascus, 
in Beirut, so you have a lot of experience in the region. Can 
you talk regionally about what's happened and how what we're 
doing regionally is important to our success in Iraq?
    Ambassador Schlicher. Yes, sir. And one important thing 
that's been happening regionally lately is the efforts of 
Allawi and his government himself, which of course we and the 
international community are supporting, to integrate the new 
government more completely in the region. This was helped 
greatly, of course, by the early passage of 1546. But also, the 
Allawi government has moved smartly and set as its first 
diplomatic priority establishing the best possible relations 
with the other countries.
    The Arab League has been very helpful in this regard. The 
Egyptians have been very helpful in this regard. The 
Organization of the Islamic Conference had a summit in Istanbul 
shortly after the Interim Government took over, and they 
welcomed the new government, they helped establish its 
acceptance and legitimacy in the Islamic world. And there have 
been a series of six meetings of the neighboring countries of 
Iraq, most recently one this week in Cairo attended by Foreign 
Minister Zebari, so that's been a high priority of theirs.
    Diplomatically, we, of course, have had an intense series 
of consultations with all different countries in the region 
about particular ways that they could help in the process of 
getting the Interim Government off to the right start. And I 
think that Allawi is pleased with his progress so far, we're 
pleased generally speaking with the diplomatic reactions of the 
neighboring states.
    There are, of course, neighboring states there that present 
particular challenges and difficulties, especially with regard 
to border security. I would note that the Iraqis have been 
actively pursuing diplomatic means of addressing that as well. 
Recently, Deputy Prime Minister Barham Saleh made a visit to 
Damascus to discuss this issue, Minister of State Adnan al-
Janabi was in Damascus last weekend. This subject and frozen 
Iraqi assets were on the agenda. And Prime Minister Allawi is 
in the process of doing a regional tour right now, and he will 
be in Damascus on Friday. So we hope and we expect that with 
continued pressure we are going to solve a lot of the problems 
that still exist on border security. Briefly, sir, I hope that 
helps.
    Senator Chafee. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Biden.
    Senator Biden. Thank you. Gentlemen, I wasn't absent for 
lack of interest. The Judiciary Committee has a very important 
bill on DNA testing that I'm an author of and I had to be in 
that committee, and I apologize.
    Mr. Gompert, you succeeded in Iraq--I know you're no longer 
in the government--one of the most competent guys that I know 
in government, Walt Slocombe. And I want to lay out for you, 
and we only have a few minutes, I know, we're going to vote 
shortly, but in my 10 minutes, I'm going to lay out a thesis 
and I'd like you to respond to it, tell me where you think it's 
right, wrong. And Ron?
    Ambassador Schlicher. Yes, sir?
    Senator Biden. You can call me Joe if you want to. You jump 
in on this one. But it relates to the security situation, the 
prospects of it getting better. I think, Mr. Gompert, you made 
it real clear, and I think you're dead right, that ultimately 
what is needed here for there to be anything beginning to 
approach success is the active and courageous cooperation of 
the Iraqi people.
    Now, those of us who do foreign policy as a major part of 
our occupation, we like to make things sounds really 
complicated all the time to people. I don't think we 
intentionally do that, but we tend to do that. And it seems to 
me, I've spent a lot of my professional life dealing with 
foreign policy issues, but equally as much dealing with 
criminal justice issues, the mob here in the United States of 
America, the drug cartels, and I can either take the blame or 
occasionally some of the credit for the major pieces of anti-
crime legislation we've written.
    The reason I mention this is as follows. It seems to me the 
situation, whether it's Samara, whether it's Baghdad, whether 
it's Basra, Mosul, wherever it is, is the same exact thing that 
exists in any large city in the United States of America 
dealing with a major drug cartel, the mob, and/or a crime wave. 
I've spent hundreds and hundreds of hours in my career in 
hearings with your counterparts who are experts in criminology 
and the criminal justice system, the psychology of what makes 
people cooperate with authorities.
    And there's one basic bottom-line rule, and I posit there 
is not a single difference between someone, in Baghdad, and 
someone living in West Philly, if they believe they can't walk 
outside their house without fear of something very bad 
happening to them. If they believe that if they cooperate with 
the authorities to deal with the bad guys who own their 
neighborhood, they in fact will not cooperate. As a matter of 
fact, they will, by their acquiescence, cooperate with the bad 
guys.
    So we went through this whole thing on a crime bill, and I 
know the foreign policy experts out there are saying, well, 
what are we talking about domestic policy for here? Iraq is big 
time stuff. But it's the same exact thing in my view. And we 
don't seem to get it, and with all due respect, Walt didn't 
seem to get it and I don't think that Bremer got it, and I'm 
not sure we have it yet. And it's this: that there has to be a 
credible--not certainty--but a credible prospect that if in 
fact someone in the neighborhood turns in the drug dealer on 
the corner to the cop once the drug dealer makes bail, he's not 
going to come down and burn down their house and literally 
eliminate them, which for those of you that do only foreign 
policy, happens every day in every city of the United States of 
America where there is a major drug problem.
    So what we found out is you have to flood the zone with 
forces and you have to flood the zone with cops, and you have 
to flood the zone with cops who get to know the people on the 
block. That's what community policing is all about. Now, I'm 
not suggesting we have community policing overnight in Iraq, 
but here's my thesis. The reason why I don't have any real hope 
at the moment is we have no genuine training program underway 
in Iraq. We have a training program for cops and it's getting 
better, and we have a training program for the military, but 
there is no realistic prospect. There is no reasonable prospect 
that we are going to have a credible force available, trained 
Iraqis, for months and months, I would argue for at least a 
year.
    So my thesis goes on in that I believe that somehow we've 
got to convince people that the government is legitimate. The 
government's legitimacy relates as much to security that 
government can provide as it does to projects it can deliver, 
and the projects it can deliver relates to the security. The 
only real projects we're getting done are the ones that are 
being done in Sadr City and the 1st Cavalry is doing them. 
There's others, don't get me wrong, but they're usually 
military-related. They're usually--there are notable 
exceptions--but in the most difficult areas of Iraq, where the 
projects that are changing attitudes and will change attitudes 
are actually coming to fruition, is where there is U.S. 
military around, available, and/or doing it. .
    So, here's my question. I think you're the first person to 
testify before us to state what is obvious, there is no shot of 
this working without the active cooperation and courage of 
average Iraqis. Samara today, news account, the town is empty 
now, 300,000 people, several tribes in there, are fleeing, one 
of them vowing revenge for the wedding killings, whether it was 
a wedding or whether it was whatever, but vowing that anyone 
who cooperates with not only us, but even with the new 
government, could be targets.
    So what is it we do now? Or how long will it take to level 
with the American people? How long is it going to take before 
we're in a position or the government's in a position to be 
able to provide to a neighborhood in any town in the triangle, 
stick there for a moment, the probability that if they 
cooperate, they will be safe? Because in my experience in the 
total of three trips I've made to Iraq in the last year and a 
half, two since the war, they believe that the Iraqi people 
signing up to be cops and signing up to be military are good 
people, they'd much rather them be them than us. But they don't 
believe they possess the capacity at this point or even the 
capability at this point.
    So what is it that we do? What is it we do in concrete 
terms and what timeframe, and I know you don't have exact 
timeframes, but as a very informed guy, what do you think the 
timeframes are we're talking about? Mohammed walks out his door 
and he knows that there's an al-Qaeda cell across the street or 
he knows that there is in fact part of an insurgency that's 
planning an attack and he sees them backing up a pick-up truck 
with 17 rocket launchers because we didn't confiscate them, 
because we didn't have the troops there to be able to take care 
of the ammunition dumps, and he sees them backing them into the 
garage, or backing them into the backyard and burying them. 
What does it take? What do we have to do to get to the point 
that there's some probability other than him being a totally 
courageous, democratic patriot, that he's going to get on his 
motor scooter, his bicycle, his car, or his cell phone, and 
contact somebody, and say, by the way, across the street? 
What's it going to take and what's the timeframe? Thank you, 
Mr. Chairman.
    Mr. Gompert. I agree with your analysis of the nub of the 
problem. That's a very good way of depicting it. It will take 
large numbers of police who are much better led and much better 
trained than the average Iraqi police even today. But it will 
also take high performance military forces to be able to move 
in if the police can't handle it, or in fact to get the police 
in in the first place, because in some of these cities the 
police aren't even there.
    Now, just a quick word on how we got here and then the next 
6 months. We had 80,000 police, mostly re-treads from an old 
police organization that was ineffective, incompetent, not 
dreaded as much as just ridiculed, and instead of changing that 
out as quickly as we could with large flows of highly trained 
and well-led new police, we tried to upgrade it in place. And 
that didn't work because the police, not only with their day-
to-day corruption, but also in April when we had the crisis, 
they collapsed. All those who faced violence, or many of them, 
ran or went to the other side.
    So one thing we can do and must do is place the priority 
squarely on quality of police and end this debate over what's 
more important, having lots of policemen or having well-led, 
proper policemen who can address exactly the problem that you 
identified.
    Senator Biden. I absolutely, positively agree with you.
    Mr. Gompert. The second problem we have, and this is 
peculiar, if not unique to Iraq, is that in some of these 
cities, the security situation is so bad and the fighters, some 
foreign fighters, most of them from the old Saddam security 
organizations, so numerous, so professional that the police 
either can't get in or won't stay in or can't stand up to them, 
even if those police are well-trained and well-led.
    And for that, all we've had so far is the U.S. Army and the 
U.S. Marines, and when it's really bad, as it was in Fallujah, 
you bring in the Marines, who of all of our forces are probably 
the best at urban warfare, and you saw the results and you saw 
what we had to do as a consequence, so what you don't want to 
do is end up in urban warfare because the police are 
inadequate. You don't want our forces in urban warfare and you 
don't--and so far we haven't had any Iraqi military forces that 
can move in to that environment. So the second part of the 
problem is placing equally sharp focus and high priority on 
what I'd call the well-led, specialized, high performance, 
quick response Iraqi army forces----
    Senator Biden. I agree.
    Mr. Gompert [continuing]. Who can then come in to support 
those well-led, well-trained policemen. How long will it take 
before it all comes together? Six months at a minimum.
    Senator Biden. I really appreciate your candor. I 
absolutely agree with you. I'm not being solicitous. I agree 
exactly with what you said. I am just baffled why it is not 
self-evident to the administration.
    Now, I just got back from visiting along with two of my 
colleagues--just, now it's a month--the training center in 
Jordan. Our trainers, our U.S. person in charge of all the 
training, the Canadian who's No. 2, a really tough mounted 
policeman from Canada, and the head of the Jordanian police 
force said, this is not worth it, this is not anything. Eight 
weeks of training, don't know what happens to them, no vetting 
before they come.
    So I think unless we get there, unless we make this the 
greatest priority, I don't know how--I really--I'm an 
optimistic guy, but my optimism fades very rapidly, and I don't 
get a sense, Mr. Secretary, I don't get a sense from my 
friends, our friends at Defense, our friends in the White 
House, that this is viewed as honestly and as urgently as I 
think it should be, and based on what you say, maybe you think 
it is. But maybe you have something really good to tell me to 
make me feel better as we go vote, but I don't get a sense it's 
there yet.
    We had an opportunity to push very hard on our European 
friends 10 months ago on this. We had an opportunity to press 
hard again now. Again, I just don't see it happening, and now I 
see the Europeans backing away, being irresponsible in my view, 
not stepping up to the ball when they should. They have all 
reasons to say why it's our fault and why they shouldn't, but 
they got to get over it. Even if every bit of it's true, they 
got to get over it, they got to get over it.
    I thank you for you candor, and Ron, if you have anything 
you want to say, fine. I think I'm well out of my time.
    Ambassador Schlicher. Yes, sir. As somebody who's spent 
most of his career actually watching street politics in the 
Arab world and trying to figure out what that meant in policy 
terms, I agree with you completely. The success of the 
enterprise is going to depend on what the average Iraqi thinks 
is his situation. I also agree with Dave's remarks on the need 
for high quality training of the police.
    I hope as we move forward with NATO participation and 
training of police forces there that there will be additional 
opportunities. We have to keep doing what we've been doing in 
the training programs, but do it better and in a more focused 
way.
    Another part of the equation, if you're the Iraqi, that 
average Iraqi, is going to be what is your government doing 
about it. And I think in that regard that the steps that Prime 
Minister Allawi has undertaken on security have been welcomed 
by his people. There are several examples of a new 
assertiveness in local Iraqi forces going in and trying to 
clean up things. You may have read about a big sweep last week 
of criminals. There was another one this week. The reportage 
from Baghdad is that that's been very well received, so I hope 
that as Allawi's security strategy succeeds, it will take care 
of part of the very fundamental problem, sir, that you've 
identified.
    Senator Biden. If I can use a football analogy, this is 
blocking and tackling. I'd go out and I'd try to get one squad, 
a second squad, a third squad, place them in one city, I mean, 
just build the blocks here, because I think, David, you're 
right, it's got to be serious people who can shoot straight, 
who are as well equipped.
    If I can end with a little story just so you know it just 
doesn't happen there. When in the middle of the crime bill, we 
were trying to pass it, I got picked up by the fourth ranking 
member of the Chicago Police Department. I'm riding along, he 
has a captain in the car with him. I'm saying, what's it like 
out here? It was about how outgunned our police are. And he 
said, well, let me give you an example, Senator. He said, 
captain, tell him. The captain's driving the car taking me to 
this event. And he said, well, last night I was coming home, I 
had my colleague with me, then he went through this thing, and 
he said, I got a call there was a major drug deal apparently 
going down on one of the piers in Lake Michigan, so we drove 
in, got into this alley, came through, opened up, got out of 
our cars in the usual form like Starsky and Hutch, the doors 
open, the cops get out.
    He said, literally, this is a true story, all of a sudden, 
he said, everybody freeze, we shined the lights on them, they 
popped open their trunk, took out high-caliber weapons that 
could literally blow our car away. We said, no problem, got in 
the car and we backed out. You got to have the same firepower. 
You got to have the same capability.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, today marks the first hearing of this committee since 
two important transfers occurred. The first was the transfer of 
sovereignty on June 28. The second was the transfer of the lead role 
within our own government from the Defense Department to the State 
Department. I hope this fresh start will increase the prospects for 
success in Iraq.
    While the State Department is now in the lead, the Defense 
Department still plays a critical role in managing the 140,000 American 
troops in Iraq and in training Iraq's security services.
    Thus, I am disappointed that the Defense Department did not respond 
to your invitation to provide a witness. The American people don't 
expect the different branches of government to march in lockstep, but 
they do expect us to work together on the challenges of the day.
    Mr. Chairman, the administration must start leveling with the 
American people about what is happening in Iraq.
    This committee has heard its fill of rosy scenarios. Today, I hope 
we will hear a dose of reality. We expect to hear the hard truth, not 
just the good news--and I am glad there is some good news--but the 
whole picture.
    You have an obligation to tell it to us straight and the American 
people have a right to hear it.
    If the American people believe they have been misled, then their 
support for what will be an enormous, dangerous, costly, and lengthy 
American presence in Iraq will continue to erode.
    Let's be clear about what is happening in Iraq. We have handed over 
sovereignty. But we have not handed over capacity--that is, the ability 
for the Iraqi Government to do the things that people everywhere expect 
of a government--to provide law and order, to supply electricity and 
clean water, and to set the foundation for an economy that creates 
jobs.
    The Iraqi people desperately want their Interim Government to 
succeed. But if it cannot deliver, their patience will disappear, and 
U.S. troops will bear the brunt of their anger. I know that Prime 
Minister Allawi is aware of the urgency of the situation.
    The central question is this: what can we do to help Iraq stand on 
its own?
    This must not be solely a U.S. responsibility. The international 
community, through a unanimous vote of the U.N. Security Council, made 
clear that Iraq is the world's problem, not just our own, and called on 
member states to act.
    We must demand that the world's major powers, Iraq's neighbors and 
leading international organizations like NATO answer the call.
    Based upon my recent trip to Iraq with Senators Daschle and Lindsey 
Graham, I believe we need to focus on six key tasks:
    First, we must radically overhaul the program to train and equip 
Iraqi security services, including the police and the army. General 
Petreaus is the right man for the job. But we must support his efforts 
by providing more personnel and resources, and by recruiting more 
countries to do training, especially for Iraqi police.
    The last year could and should have been spent developing effective 
training programs. Instead, the administration chose to focus on 
quantity, not quality. They skimped on the training, and put as many 
people in uniform as quickly as they could. As a result, the so-called 
Iraqi security services--police, army, and national guard--are hollow 
forces.
    Second, we must commit to defeat the insurgency and provide 
security for Iraq's elections, which will require a surge in troops 
before the elections, more MPs and civil affairs experts from our 
allies, and more special forces and intelligence assets from the United 
States.
    Our commanders told us that they plan to overlap outgoing and 
incoming forces around election time to help provide additional 
security. But elections will be a massive undertaking, with up to 
30,000 polling places, and will require additional forces from other 
nations.
    Third, we need to provide--as called for in Resolution 1546--a 
special brigade to protect the U.N. mission in Iraq. I understand there 
has not been much success in raising this force.
    Fourth, we must do a better job of spending the $18.4 billion that 
Congress appropriated last Fall.
    Our commanders told us that creating jobs and improving electricity 
supplies, sewage treatment, and fresh water will have a direct bearing 
on Iraqi support for the insurgency. It is bordering on negligence that 
only $458 million of the $18.4 billion--or about 2\1/2\ percent of the 
total--has been spent to date.
    Fifth, we need to deploy an army of technical experts to help 
Iraq's government build its institutional capacity. Many countries 
bemoaned the plight of the Iraqi people during the 1990s. Now is the 
time for them to offer their money, skills, and personnel to help those 
same people.
    Sixth, we must ensure that other nations deliver on their financial 
pledges and push for debt relief. Thus far, of the $13 billion pledged 
by other nations and organizations (of which two-thirds are loans) only 
about $1 billion has been delivered, and none has been spent.
    The administration appointed Secretary Baker to persuade other 
nations to reduce Iraq's crushing debt burden. I'd appreciate an update 
today on where things stand with his efforts.
    June 28 provided a new beginning. We have huge challenges ahead. I 
look forward to hearing how the administration plans to tackle these 
challenges.

    The Chairman. Well, let me conclude the hearing at this 
point, unless--all right. We're in the second half of the vote. 
Go ahead.
    Senator Chafee. I suppose I should have asked this question 
first of Ambassador Schlicher, but there was an article in The 
Nation about some of the morale in the State Department, and it 
says, I'll just read it, ``the State Department officers gripe 
about the agency becoming irrelevant, particularly on Middle 
East policy. One past Foreign Service official who served in 
the Middle East Bureau and continues to work with officers 
there notes, `there has been a huge drop in the morale of those 
folks working in our embassies in the Middle East. I think they 
feel nothing is getting through substantively, that the 
administration is not on receive mode, but just wants to give 
instructions on matters it may not understand, as well as folks 
in the field.'
    ``Current and former State officials point to what happened 
to Ron Schlicher, a career diplomat, who has been consul 
general in Jerusalem until the White House yanked him and 
reassigned him as Ambassador to Tunisia. Reporting out of 
Jerusalem, said one Department official, was truthful and 
accurate, but it did not suit the White House.''
    Are you free to comment honestly or is your career----
    Ambassador Schlicher. I would comment, sir, that I am not 
familiar with this article or its author, but I would say that 
he certainly doesn't know what my story is. My story is that I 
was assigned to do Iraqi matters and to go to Baghdad, and my 
morale in Baghdad, actually it improved, because I thought we 
were part of something extremely important that was going on 
for the sake of Iraq and for the sake of our nation. And 
although my morale in terms of having to work 12 or 14 hours a 
day here, that part of it's not pretty good, but I feel 
extremely strongly that I and the 50 or so people who work with 
me on Iraq are absolutely dedicated to the task. We feel that 
we have input into the process, and I would say that the only 
real problem we have is that there aren't enough hours in the 
day to do everything that we need to do.
    Senator Chafee. The reason I asked the question is we've 
heard this morning about the great difficulties we're in in 
Iraq, and I think Mr. Gompert said we're not going to defeat 
our adversaries militarily. We're in a world of hurt in Iraq, 
and if the administration isn't on receive mode, I think it's 
going to make it even more difficult. That's the reason I bring 
that up, and you've certainly spoken on the record, so thank 
you.
    The Chairman. We thank you for your testimony. I think 
there were good questions. I would just summarize for my own 
part by saying I share Senator Biden's feelings about the 
security situation. I hope that this review that's occurring 
with regard to dispensing the money and getting jobs out there 
will proceed. It is exasperating that we are still reviewing it 
at this stage.
    Senator Chafee was in a similar position, formerly as a 
mayor who had responsibility for security and jobs. Probably 
some more mayors or sheriffs are needed in this process. I say 
that respectfully. At the State Department and at the Defense 
Department, we need some people that actually understand the 
street, understand governance. And we've got to get on with it. 
Success has to be ours and for the Iraqis in this respect.
    We've got 6 months, and while this training is going on, 
all of the democratic procedures we outlined today have to 
occur. This is a daunting prospect, but one that has to occur. 
We're going to have to devote the resources to it to make sure 
it occurs, in order to ensure the protection of the process. 
Because that finally is our objective for the whole war, as a 
matter of fact, it comes down to whether there can successfully 
be a change of governance in that area successfully, and 
security established for us in the war against terror, and for 
the Iraqis.
    So we understand that you hear our urgency and our pleas. 
We appreciate the hearing and your testimony. The hearing is 
adjourned.
    [Whereupon, at 11:15 a.m, the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I thank the chairman and the ranking member for holding this 
hearing, and I thank all of the witnesses for being here today.
    This hearing is an important opportunity for the committee and the 
American people to gain some clarity about the U.S. strategy in Iraq 
today. Over 900 American troops have been killed in Iraq. Nearly 6,000 
have been wounded. Well over a hundred billion taxpayer dollars have 
been dedicated to this effort to date. The American people continue to 
bear a tremendous burden in Iraq, even after the transfer of 
sovereignty that occurred late last month.
    Moreover, directing so much military and political attention, so 
many taxpayer dollars and so many intelligence assets toward Iraq means 
that we have less to devote elsewhere, at a time when we confront 
global threats of terrorism and the proliferation of weapons of mass 
destruction. We need a strategy for stabilizing Iraq that also eases 
the burden on this country and frees up resources to devote to other 
important national interests. And we need to ensure that this strategy 
strengthens international cooperation rather than undermining our 
relationships around the world.
                              ----------                              


            Responses to Additional Questions for the Record


 Responses of Hon. Ronald L. Schlicher to Additional Questions for the 
            Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. In June, the Security Council created a United Nations 
protection force for Iraq. I am unaware, as of this week, of any 
contributions to this force. Can you please update us on the status of 
this force? Where do you expect the soldiers to come from? If 
insufficient forces are made available would the United Nations accept 
American military protection or private security contractors?

    Answer. UN Security Council Resolution 1546 notes the creation of a 
distinct entity under unified command of the multinational force to 
provide security to the UN in Iraq. It also calls upon member states 
and relevant organizations to provide resources, including troops to 
this entity. Iraqi Prime Minister Allawi and the UN Secretary General 
Kofi Annan have been working to secure troop contributions for the UN's 
security when it returns to Iraq in the near future. Security for the 
UN is essential to enabling the UN to contribute to the vital work that 
lies ahead in Iraq. The United States supports Prime Minister Allawi 
and the UN Secretary General's efforts. Discussions are ongoing, but to 
date, no contributions have been received. In the interim, the 
Multinational Force in Iraq, specifically the United States, will be 
prepared to provide protection for the UN.

    Question 2. The United Nations has a team of election advisors 
headed by Carina Perelli working in Iraq. By most accounts, the current 
security situation must improve in order to permit elections by January 
2005. Prime Minister Allawi hinted that elections might be postponed, 
though he quickly backtracked from these remarks. How are elections 
preparations proceeding? How is planning being coordinated between the 
United Nations, U.S. officials and Iraqis? Could elections be held 
given current security conditions?

    Answer. National Elections for the Transitional National Assembly 
must be held no later than January 2005. The United States is holding 
to this target date. The Iraqis, U.S. officials, UN officials and MNF-I 
meet regularly to discuss elections-related issues, and there is an 
ongoing dialog among all parties to ensure that elections goals are 
met. These discussions include security preparations for elections.
    The members of the Independent Election Commission of Iraq (IECI) 
that will administer the elections have been selected. They currently 
are setting up the administration for Iraq's first genuinely sovereign 
and representative elections in January 2005. They have returned from 
UN-sponsored training in Mexico and have begun preparations for the 
elections, including establishing offices, hiring staff, consulting on 
election regulations and developing training programs for elections 
workers. The IECI continues to work with the handful of UN electoral 
experts currently on the ground in Baghdad. The USG is funding 
assistance to political parties and groups expecting to participate in 
the elections, and programs to educate voters about the electoral 
process.

    Question 3. Ambassador Ashraf Qazi has been chosen as Kofi Annan's 
envoy to Iraq. What will his role in Iraq be? How large a staff will he 
have? When do you expect him to arrive in Iraq?

    Answer. Ambassador Qazi's role will be to oversee UN activities in 
Iraq. We expect that he will be focused on the UN's support for the 
political process, in particular facilitating UN support for the 
preparations for and holding of elections by January 2005. The size of 
his staff will be a decision for Ambassador Qazi to make, and I refer 
you to him for an answer to that question. We expect Ambassador Qazi to 
arrive in time for the National Conference.

    Question 4. International donors have pledged at least $14 billion, 
mostly in loans, to Iraqi reconstruction, but as of late May only about 
$1 billion worth of funds had been committed and little, if any had 
been spent. Although an Iraqi Strategic Review Board has been created 
to approve and prioritize projects, a June 25 audit by the CPA 
Inspector General found that ``no process was developed for tracking or 
coordinating internationally funded projects with other CPA 
reconstruction efforts.''
    With the opening of the American Embassy in Baghdad, what steps are 
being taken to improve the coordination of international reconstruction 
efforts?
    How much international reconstruction money has been spent?
    What mechanisms and criteria have the Iraqi Strategic Review Board 
and the Ministry of Planning implemented to ensure transparent and 
accountable decision making?

    Answer. Of the $32 billion in pledges for 2004-2007 at the Madrid 
Donors' Conference, $13.584 billion was from non-U.S. sources. Of this, 
$5.55 billion was pledged by the World Bank and IMF in lending 
programs. The remaining $8.034 billion was pledged by 36 countries and 
the European Commission. Currently, the Iraqi Interim Government (IIG) 
is in discussions with the World Bank and the IMF regarding the IIG's 
interest in their lending programs.
    As of June 30, 2004, of the $8 billion in non-U.S. donor 
assistance, other donors had disbursed over $1.15 billion of their 
pledges, according to our estimates. Therefore, 6 months into a 4-year 
pledge, about 1/8 has already been disbursed.
    $826 million of this $1.15 billion in disbursements has been in the 
form of deposits to the International Reconstruction Fund Facility for 
Iraq (IRFFI), which is comprised of UN and World Bank trust funds. The 
remaining $321 million has been disbursed for bilateral projects and 
non-IRF trust funds. The UN and World Bank trust funds are now starting 
implementation of their initial IRFFI projects. Disbursements and 
implementation have been complicated by the security situation in Iraq, 
but nonetheless are continuing.
    The IRFFI plays an important role in helping international donors 
channel their resources and coordinate their support for reconstruction 
and development activities in Iraq. Close coordination is achieved 
through a joint Donor Committee and a unified UN/World Bank Facility 
Coordination Committee. The Donor Committee oversees the activities of 
the Facility and has held meetings in Abu Dhabi in February and Doha in 
May that helped speed up the commitment of pledges made in Madrid. The 
next Donor Committee meeting is scheduled for October in Tokyo. The 
Facility Coordination Committee serves as the administrative body for 
the World Bank and UNDG to work together to ensure coherence.
    The UN and World Bank trust funds in the IRFFI work in close 
partnership with the Iraqi national authorities, principally the Iraqi 
Strategic Review Board (ISRB) and the Iraqi Ministry of Planning and 
Development Cooperation (MoPDC). The MoPDC serves as the Interim Iraqi 
Administration's primary liaison with the IRFFI. The ISRB is currently 
conducting an extensive series of workshops, drawing together sector 
experts from various Iraqi Ministries, the private sector and academia. 
In addition, an inter-ministerial committee--consisting of members from 
ten Ministries, drawing from their official programs as well as from 
discussions held under the committee's auspices--is preparing a draft 
National Development Strategy. This participatory approach should 
enhance governance, accountability and transparency.
    The Department of State holds frequent teleconferences with 
international donors. In addition, since the opening of U.S. Embassy 
Baghdad on June 28, the Department has stepped up official 
consultations with the World Bank, the IMF, the UN, and other 
international agencies, and is committed to improving the overall 
coordination of international reconstruction efforts in Iraq.

    Question 5. How rigorous is the typical training program for army 
and police officer recruits? Are these training programs rigorous 
enough to prepare the Iraqis to effectively confront well-armed and 
well-organized insurgent forces?

    Answer. Army basic training is 8-weeks and includes cadre-led 
recruit training and squad and platoon level training. If there is a 
new unit being established, initial training will continue up to and 
include battalion level collective training in actual operations, with 
advisor oversight, for an additional two months. If the recruit is a 
replacement at an established unit, he will have the required 
fundamental skills needed after that 8-week basic training course to 
integrate into that established unit and quickly receive the additional 
specialized training for the other skills required. We believe that the 
army basic training course is rigorous enough to prepare the new 
recruit for military duty in the Iraqi armed forces.
    Police recruits attend an entry-level 8-week Iraqi Police Service 
(IPS) basic police skills training program. While it is short in 
comparison to most U.S. programs, the overwhelming need for police 
officers in the postwar period required an accelerated training 
program. This training is also consistent with programs the U.S. has 
delivered elsewhere, specifically at the Kosovo Police Service School. 
It is designed to be complemented by a field training and evaluation 
program whereby on-the-job instruction is furnished by both 
international police liaison officers and specially trained Iraqi field 
instructors. Finally, we do not see the IPS as the force of choice to 
confront a well-armed and well-organized insurgent force; the Iraqi 
National Guard and MNF are on-call to support that mission. We, 
therefore, believe that the length of the current program strikes a 
proper balance between placing additional police on the streets and the 
requirement to provide rigorous initial training to support the IPS' 
intended policing mission.

    Question 6. June 9th, an agreement was signed to disband nine 
prominent militias by next year. What progress has been made in this 
effort? What role, if any, does the U.S. have in facilitating this 
agreement? What are the contingency plans in the event that this 
agreement is not fulfilled?

    Answer. The United States strongly supports Iraqi efforts to ensure 
that all armed groups are brought into compliance with Iraqi law.
    Coalition Provisional Authority Order 91, ``Regulation of Armed 
Forces and Militias within Iraq,'' was promulgated by CPA and announced 
by then-Prime Minister-designate Allawi on June 7th, 2004. This Order 
implemented Article 27 of Transitional Administrative Law, which 
prohibits armed forces and militia not under the command of the Iraqi 
Government except as provided by Iraqi federal law. Since the transfer 
of governing authority to the Iraqi Interim Government (IIG) on June 
28, the United States has provided technical assistance and advice to 
the IIG when requested. Iraqi officials, led by the Iraqi Transition 
and Reintegration Committee, have had the authority and responsibility 
for overseeing the execution of the Order.
    On July 14, U.S. Secretary of Veterans Affairs Anthony Principi 
traveled to Iraq and met with Prime Minister Allawi, Defense Minister 
al-Sha'lan and Director of the Iraqi Veterans Agency General al-Obeidi. 
Secretary Principi reiterated the United States' willingness to provide 
technical assistance to assist the Iraqi Veterans Agency, including in 
implementing the vocational training and job creation programs that are 
important parts in the plan to reintegrate militia members into Iraqi 
civilian society.

    Question 7. As of July 13th, only $458 million of the $18.4 billion 
P.L. 1O8-106 supplemental funds for Iraq had been spent. The 
contracting process is being restructured since State is now the lead 
department in Iraq.
    What are the lessons learned from the experience of the Program 
Management Office, the CPA's contracting body?
    How are these lessons being implemented? What assurances do you 
have that things can be accelerated?
    To what extent is ongoing violence in Iraq slowing down the 
reconstruction?

    Answer. There is no question that the security situation in Iraq 
represents the largest challenge to the vital reconstruction effort, 
but the Secretary has stated publicly his commitment to moving forward 
as quickly as possible, working in conjunction with the Iraqi 
authorities, on the reconstruction of Iraq. Ambassador Negroponte has 
directed a comprehensive review of IRRF spending priorities and 
procedures. Since the return of sovereignty to the Iraqis on June 28, 
the new U.S. Embassy has endeavored to learn from the experience of the 
Coalition Provisional Authority--recreating what was successful and 
developing new practices of our own. In this manner, the Embassy has 
established the Iraq Reconstruction Management Office (IRMO) in Baghdad 
to coordinate and oversee our effort. The Army's Project Management 
Office has been recapped as the Project Contracting Office, and will 
work under the overall direction of the IRMO. Together with the other 
implementing agencies, and with their counterparts in Washington, these 
new offices are providing coordinated, daily oversight of assistance 
goals to ensure timely implementation of our over-arching policy goal 
in Iraq. Moreover, this direct monitoring and coordination will improve 
the assistance and contracting process, and allow the flow of 
assistance and contracting, which has already begun to accelerate, to 
continue to do so.
    As stated at the outset, the security situation in Iraq has 
presented obstacles to reconstruction, and will continue to be an issue 
for the foreseeable future. Despite these complications, the vital 
process of rebuilding Iraq will continue. This process of 
reconstruction will help to lay the foundation for the secure and free 
Iraq that we are working to build with the new Iraqi authorities.

    Question 8. When does the administration expect to receive funding 
from Congress for construction of new Embassy facilities?

    Answer. While the administration has not yet made any final 
decisions, we anticipate that funding for the new embassy facilities 
will be included either in a FY 2005 supplemental request or the FY 
2006 budget submission which will be submitted to Congress next year.

    Question 9. What is the current estimate of budgetary requirements 
to operate Embassy Baghdad in FY 05?

    Answer. Our estimate of the operating costs for the new mission in 
FY 2005 is approximately $1.1 billion. This does not include the 
capital facility costs for a new embassy compound. We continue to work 
to develop more precise FY 2005 requirements including revised 
estimates for logistics support and security contracts. The largest 
components to support the U.S. Mission are logistics support and 
security contracts, up to $800 to $900 million annually.

                                 <all>

</pre></body></html>
